Case 20-1706, Document 48, 10/09/2020, 2949023, Pagel of 1
S.D.N.Y.-N.Y.C.
18-cv-9936
Schofield, J.

United States Court of Appeals
FOR THE

SECOND CIRCUIT

At a stated term of the United States Court of Appeals for the Second
Circuit, held at the Thurgood Marshall United States Courthouse, 40 Foley Square,
in the City of New York, on the 9th day of October, two thousand twenty.
Present:
Barrington D. Parker,
Denny Chin,
Circuit Judges,
Timothy Stanceu,
Judge. *
Jane Doe, individually and on behalf of all others
similarly situated, et al.,
Plaintiffs,
v.

20-1706

Trump Corporation, et al.,
Defendants-Appellees,
Raj K. Patel,
Intervenor-Plaintiff-Appellant.

Appellant, pro se, moves to overturn the district court’s order denying his motion to intervene, to
waive oral argument, and for expedited review of his appeal. Upon due consideration, it is hereby
ORDERED that the motions are DENIED and the appeal is DISMISSED because it lacks an
arguable basis either in law or in fact. See Pillay v. INS, 45 F.3d 14, 16-17 (2d Cir. 1995) (per
curiam) (holding this Court has inherent authority to dismiss an appeal when it lacks an arguable
basis in law or fact).
FOR THE COURT:
Catherine O’Hagan Wolfe, Clerk of Court

* Chief Judge Timothy Stanceu, of the United States Court of International Trade, sitting by
designation.

